

SMART SEARCH





C O N TAC T ( H T T P S : / / W W W. E C U. O R G / C O N TAC T )

LO C AT I O N S ( H T T P S : / / W W W. E C U. O R G / B R A N C H E S )

(/)



CRLO
E C U O N L I N E ( H T T P S : / / W W W. E C 
U. O
G /SEEC U - O N L I N E )

VISA® CARDHOLDER AGREEMENT


U P DAT E P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )

MENU



UPDATED 3/18/2021
In this agreement, the words “you” and “your” mean the cardholder or holders and anyone else you
authorize to use the credit card account. The words “we”, “us” or “our” mean Eastman Credit Union.
The word “account” means your Visa® credit card line of credit.

1. OTHERS USING YOUR ACCOUNT. You agree to be responsible for all obligations incurred through
the authorized use of the account. Use of the account by you or by anyone for your bene t, or with your
actual, implied or apparent authority shall be authorized use. Until you notify us in writing to the
contrary, use of the account by your spouse or children or any person who is a member of your
immediate household shall be an authorized use.

2. AGREEMENT TO TERMS. In accordance with your request, we have opened an account for you.
Your signature on the application, your retention of the Card, and/or your use of the account in any way
means you agree to the terms of this Agreement and the provisions of the Card itself. This Agreement
governs your Account and use of the Card we have issued to you. We will pay member merchants for
goods and services you obtain by use of the Card and make other loans to you on terms explained later
in this Agreement. You authorize us to charge your Account for all such amounts, and for other amounts
advanced to third parties on your behalf. This includes without limitation, any amounts we advance on
your behalf as a result of any Card related services o ered by Visa U.S.A., Inc.

3. PROMISE TO PAY. You promise to pay the total amount owed for any goods and services purchased
or cash advances obtained through the authorized use of the Account. You also promise to pay any
FINANCE CHARGES, fees or other charges you owe. If your Account is a joint account, you and your
joint account holder each promise to pay and are jointly and individually responsible for all amounts due
on the Account. We may issue additional Cards to other persons you authorize to use your Account if
either Borrower asks us to do so. However, you are responsible for all charges made by any person(s)
you have authorized to use your account.

(/)

4.
CREDIT
will be
edI OofN Syour
You
S M A R TLINE.
S E A R CYou
H
LO C AT
( H T TCredit
P S : / / WLine
W W. E(limit).
C U. O R G
/ B R promise
A N C H E S ) that the total balance of
 noti
purchases and cash advances will not exceed that limit. You may request an increase in your Credit
Line, which must be approved by our credit committee or loan o cer. By giving you written notice our
credit committee may change your interest rate from time to time, or with good cause, may change your
Credit Line or revoke your card and terminate this agreement. Good cause includes your failure to
CRLO
U. O
G /SEEC U - O N L I N E )
 C O N TAC T ( H T T P S : / / W W W. E C U. O R G / C O N TAC T )
 E C U O N L I N E ( H T T P S : / / W W W. E C 
comply with this Agreement, or our reevaluation of your creditworthiness. You may also terminate this
Agreement at any time but termination by either of us does not a ect your obligation to pay the account
balance. The cards remain our property and you must recover and surrender to us all cards upon our
request and upon termination of this Agreement. (Cut them in half for safety.)


U P DAT E P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )

MENU



5. MINIMUM PAYMENTS. You can make full payment at any time. If you don't, you must make the
minimum payment shown on your statement within 25 days of the closing date re ected on the
statement. Your minimum payment will be 2.5% of your new balance as shown on your statement, but at
least $25.00. However, if the new balance as shown on your statement is less than $25.00 you pay only
the balance owed. Any charge exceeding your credit limit will be re ected in your new balance as
shown on your statement. Amounts exceeding your credit limit are subject to the minimum payment
requirements as set forth above.

6. IRREGULAR PAYMENTS. You agree that we may accept partial payments of amounts due or late
payments without losing any of our rights under this Agreement. You also agree that we may accept
checks and money orders marked "payment in full" or otherwise purporting to be in full satisfaction of
your outstanding balance without accepting any such condition or losing any of our rights in this
Agreement.

7. HOW WE APPLY YOUR PAYMENTS. Loan payments are applied in the following order: unpaid
nance charges, previously billed miscellaneous charges (i.e. Late Fee(s), Debt Protection Premium(s), if
applicable), and principal reduction. The principal reduction portion of the payment is credited to
balances in the following order: cash advance, balance transfer, and nally purchases.

8. FINANCE CHARGES. You can avoid FINANCE CHARGES (interest) on purchases by paying the full
amount of the New Balance of Purchases each month within 25 days of your statement closing date.
Otherwise, the New Balance of Purchases, and subsequent purchases from the date they are posted to
your account will be subject to a FINANCE CHARGE. Cash advances are always subject to a FINANCE
CHARGE from the date they are posted to your account. FINANCE CHARGES are calculated using the
average daily principal balances of purchases and cash advances in the account. The principal balances
of purchases and cash advances are determined each day during the statement period, beginning with
the principal portion of your Previous Balances, reduced by payments you make and credits we apply,
and increased by purchases and cash advances you make and debit adjustments we make during the

statement period. The daily principal balances are totaled, and divided by the number of days in the
statement period, to produce separate average daily principal balances for purchases and cash
EARCH
C AT I O N S ( H T T P S : / / W W W. E C U. O R G / B R A N C H E S )
 S M A R TtoSwhich
 LOrate
advances
the periodic
is then applied.
(/)

9A. VARIABLE RATE ACCOUNTS. If your Visa account has a variable rate, your interest rate is based on
CRLO
SEEC U -aOmargin
C O N TAC
T (H
T T P S : / / W Win
W.the
E C U.
O R GStreet
/ C O N TAC
T)
C U last
O N L business
I N E ( H T T P day
S : / / Wof
W W.
U. O
G /plus
NLINE)

 Prime
 Ethe
the
Rate
published
Wall
Journal
on
theE Cmonth
that is based on your creditworthiness. Your interest rate will change if the Prime Rate changes. Any
changes in your interest rate will a ect the amount of interest you pay and your minimum payment. The
interest rate will be adjusted on the rst day of the billing cycle following the prime rate change. If two
rates are
reported in the Journal, the higher rate will be used. Your maximum percentage
rate can be
MENU 
 U P DAT E P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )
18.00% (Daily periodic rate 0.04932%). Any request for a change in your account could result in a
change in your rate and terms. Please contact ECU for a copy of current rate information, or see your
noti cation of cardholder approval for your rate.

9B. FIXED RATE ACCOUNTS. If your Visa account has a xed rate, Eastman Credit Union will set the
ANNUAL PERCENTAGE RATE based on your creditworthiness. Your xed ANNUAL PERCENTAGE RATE
is between 9.90% (Daily periodic rate 0.02712%) and 18.00% (Daily periodic rate 0.04932%). (See your
noti cation of cardholder approval for your rate.)

10. DISPUTES. You agree to accept monthly statements we mail you as being correct unless you notify
Eastman Credit Union (423-229-8200 or 800-999-2328) of any alleged errors within the time period
prescribed by law. Your rights to dispute billing errors are set forth in this Agreement. Even though an
amount is in dispute you understand that you must pay the required minimum payment that is due less
the portion attributable to the disputed amount. If there is a problem with merchandise or services
obtained with the Card, you may have the right not to pay the remaining amount due on them. An
explanation of your rights is stated later in this agreement. We will have no responsibility for
merchandise or services purchased with the Card unless required by law.

11. FAILURE TO HONOR CARD. We are not responsible if anyone refuses to honor the Card.

12. CHANGE OF NAME, ADDRESS OR EMPLOYMENT. You agree to give us your new information if you
move, change your name or change your employment. You will write this information on the payment
stub of your periodic statement and return it with your monthly payment so we can change our records.

13. FINANCIAL AND OTHER INFORMATION. You agree to promptly provide us, from time to time upon
request, with current information regarding you and your nancial a airs. You authorize us to receive,
from time to time, information from others concerning you and your credit accounts, and to answer

questions from others regarding our credit experience with you.

(/)

SMART SEARCH



LO C AT I O N S ( H T T P S : / / W W W. E C U. O R G / B R A N C H E S )

14. LOST OR STOLEN CARD/UNAUTHORIZED USE. If you report your card as lost/stolen or having
been used without authorization upon discovering the loss, your liability is zero. There may be
exceptions to the extent allowed under applicable law if our investigation reveals you failed to take
CRLO
T ( H Tto
T Pprevent
S : / / W W W.
E C U. O R G / C O Nuse
TACof
T ) your
E C U O N L I N E ( H T T P S : / / W W W. E C 
U. O
G /SEEC U - O N L I N E )
 C O N TAC
 card.
necessary
steps
unauthorized

You agree to notify us promptly of the loss, theft, or possible unauthorized use of the Card by calling the
following
number(s):
(Call
collect
423-229-8200
E PERSON
AL IN
F O ( H TifT necessary)
P S : / / W W W. E C
U. O R G / U P DAT E or
C O1-800-999-2ECU.
N TAC T I N F O )
MENU 
 U P DAT

15. NOTICES. If we have to notify you of anything concerning your credit card account, we will use your
name and address as it appears in our records. If we do this, the notice will be e ective.

16. AUTOMATED EQUIPMENT. Transactions e ected with electronic equipment shall be subject to the
rules and regulations applicable to the use of such equipment. You agree that we will incur no liability by
reason of any failure of automated teller machines or similar equipment.

17. SECURITY INTEREST. To secure your account, you grant us a purchase money security interest
under the Uniform Commercial Code in any goods you purchase through the account. You have also
granted us a security interest in all individual and joint share and/or deposit accounts you have with
us now and in the future with the exception of Individual Retirement Accounts or other similar
accounts receiving special tax treatment. Collateral securing other loans may also secure this
account.

18. DEFAULT. You will be in default if you fail to make any payment when due, exceed your credit limit
under any account, die, le or otherwise become subject to any bankruptcy or insolvency proceedings
or do not comply with any of the terms governing any account with us. You will also be in default if
something happens that we believe may seriously a ect your ability to repay what you owe under this
Agreement. If you default, we may, at our option, declare any amounts you owe under any or all
accounts to be immediately due and payable. Also, we may revoke the privileges attaching to any or all
Card(s), adjust the Annual Percentage Rate due to adverse conditions, cancel the Card(s) and terminate
this Agreement as to future Purchases and Cash Advances.

19. COLLECTION COSTS. You promise to pay all collection costs, including attorneys’ fees in the
amount of 25% of the outstanding balance on your account or as permitted by law.

(/)

20.
and
others
honor
S M A R T S E A AND
R C H ADJUSTMENTS.
S (HTTPS://W
W W.
E C U. Owho
RG/BR
A N C Hthe
E S ) Card may give credit for
 RETURNS
 LO C AT I O NMerchants
returns or adjustments, and they will do so by sending us a credit slip which we will post to your
account. If your credits and payments exceed what you owe us, we will deposit the excess funds in your
regular share account no later than 6 months after the statement date following the excess credit or
payment. If you want ECU to deposit the excess funds in your regular share account sooner, you may
CRLO
U. O
G /SEEC U - O N L I N E )
 C O N TAC T ( H T T P S : / / W W W. E C U. O R G / C O N TAC T )
 E C U O N L I N E ( H T T P S : / / W W W. E C 
contact ECU at 800-999-2328. It is the seller's responsibility to promptly mail or deliver the credit to us
so we can credit your account. We aren't responsible for the seller's failure to mail or deliver the credit
promptly.


U P DAT E P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )

MENU



21. LATE/COLLECTION CHARGE. You promise to pay a late/collection charge if we have not received
the minimum payment within 15 days after the end of your permitted 25-day payment period. (The
permitted 25-day payment period is explained under the "Minimum Payments" section.) The
late/collection charge will be $25.00 or an amount equivalent to your monthly minimum payment,
whichever is less. However, you will not be required to pay a late/collection charge more than once on
the same late amount, even if that amount remains past due for more than one billing period. You agree
not to use your account to make purchases or cash advances from the time a late/collection charge is
imposed until you bring your account current by making the minimum payment which you have failed to
make.

22. DRAFTS/BALANCE TRANSFERS. We may issue Drafts for use with your Account or process
balance transfer requests on your Account. The amount of each Draft or balance transfer will be
charged to your Account as a Cash Advance. There is no charge for supplying Drafts or processing
balance transfer requests. Drafts must be used only by the account holder and must be completed and
signed in the same way as a regular personal check. You may use the Drafts issued the way you use
regular checks, however, you cannot use a draft to pay any amount owed under the Agreement. We
reserve the right to refuse payment of any Draft presented under the following circumstances:

(a) If you are in default under this Agreement.
(b) If your right to use Drafts is cancelled or suspended.

23. CHANGES IN AGREEMENT. You agree that the terms of this Agreement may be changed from time
to time upon notice, when required by law, being placed in the mail not less than 45 days prior to the
e ective date of the change. Any such changes shall be applicable to all balances outstanding on the
e ective date of the change.

24. INVALIDITY. If one or more provisions of this agreement are declared invalid or unenforceable, the
remaining conditions and terms stand on their own and won't be a ected.


SMART SEARCH



LO C AT I O N S ( H T T P S : / / W W W. E C U. O R G / B R A N C H E S )

(/)

25. WHAT LAW APPLIES? This agreement and all transactions under it will be governed by laws of the
State of Tennessee and the laws of the United States.


C O N TAC T ( H T T P S : / / W W W. E C U. O R G / C O N TAC T )



CRLO
E C U O N L I N E ( H T T P S : / / W W W. E C 
U. O
G /SEEC U - O N L I N E )

26. ILLEGAL TRANSACTIONS. You agree that you will not use your Account/Card to engage in any
illegal activities, including but not limited to Online Gambling. If you use your Account/Card to engage in
anyillegal
activities
liable
for
U P DAT
E P E R S Oyou
N A L will
I N F nevertheless
O ( H T T P S : / / W Wbe
W. E
C U. O R
G / these
U P DATactivities.
E C O N TAC T I N F O )
MENU 

27. CHARGES MADE IN FOREIGN CURRENCY (International transactions). If you incur a charge in
foreign currency, it will be billed to your account in U.S. Dollars. The exchange rate between the
transaction currency and the billing currency used for processing international transactions is a rate
selected by Visa from the range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate Visa itself receives or the governmentmandated rate in e ect for the applicable central processing date. Please note that a credit to your
account may not be fully o set due to changes in the exchange rate; therefore, you will be responsible
for the di erence.

28. CASH REWARDS PROGRAM. Applicable only if you have the ECU Cash Rewards Visa. You will
earn one percent (1%) cash back (the “Cash Reward”) on Net Purchases made with the Card. Net
purchases are earned based on new net retail transactions ("Net Purchases" i.e. purchases less credits,
returns and adjustments) charged to the Account during each periodic billing cycle. When a purchase or
transaction is not a whole dollar amount, any fraction equal to or greater than $0.50 will be rounded up
to the nearest whole dollar and any fraction equal to or less than $0.49 will be rounded down to the
nearest whole dollar. Transactions that are not eligible for Cash Rewards include, but are not limited to,
cash advances including ATM withdrawals, money orders, balance transfers, convenience checks, drafts,
fees, interest charges and travelers check purchases. Earned Cash Rewards will be itemized on your
periodic statement and will indicate total amount of cash rewards earned during the statement month
and total amount of cash rewards available for redemption. We reserve the right to exclude from Net
Purchases unauthorized Purchases (or which are later returned or disputed) and Purchases which are
added to your Account after you are past due or over limit. We reserve the right to add other
transactions to the list of ineligible transactions at our discretion and at any time. Any questions
regarding eligibility of transactions shall be determined by us in our sole discretion. This program is void
where prohibited or restricted by law. You are responsible for any federal, state or local income or other
taxes. We reserve the right to modify, amend or terminate the Cash Rewards Program at any time.

(/)

29. CASH REWARDS REDEMPTION. Applicable only if you have the ECU Cash Rewards Visa. You may
request reward redemption at any point after reward amount reaches $25.00. Rewards will not be given
MART SEARCH
C AT I O N S ( H T T P S : / / W W W. E C U. O R G / B R A N C H E S )
 LOReward
in
anSamount
less than $25.00.
shall be deposited by ACH into the ECU account of your choice.
Rewards shall be requested through ECU’s Online Banking or via a request to us. Your Account must be
open and in good standing at the time of redemption. We reserve the right to suspend your participation
in the Cash Rewards Program until your Account is in good standing.


C O N TAC T ( H T T P S : / / W W W. E C U. O R G / C O N TAC T )



CRLO
E C U O N L I N E ( H T T P S : / / W W W. E C 
U. O
G /SEEC U - O N L I N E )

30. USE OF CARD. Use of the card signi es agreement to the current conditions set forth by the
nancial institution.


U P DAT E P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )

MENU



31. MILITARY LENDING ACT MEMBERS. Federal law provides important protections to members of the
Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual
percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in
connection with the credit transaction; any application fee charged (other than certain application fees
for speci ed credit transactions or accounts); and any participation fee charged (other than certain
participation fees for a credit card account). Please call us at 1-877-230-3362 to receive disclosures
orally.

Interest Rates and Interest Charges

CLASSIC

PROGRAM

CLASSIC

VARIABLE¹

FIXED

Based on Prime Rate plus a margin based on
your creditworthiness. You will be informed of
your speci c APR before you become
contractually liable for the account. Your
interest rate may change.

Eastman Credit Union will set your xed APR
based on your creditworthiness. You will be
informed of your speci c APR before you
become contractually liable for the account.

PLA
PREF
F


(/)

SMART SEARCH



LO C AT IMinimum
ONS (HTTPS
: / / Wrate
W W. E C U. O R G / B R A N C H E S )
xed

Annual
10.90%
Percentage
Rate
to a Maximum xed rate
(APR)³
 C O N TAC T ( H T T P S : / / W W W. E C U. O R G / C O N TAC T )
 ECU ONLINE
18.00%
for
Based on creditworthiness
Purchases


APR may vary.
Currently
7.75% to

CRLO
( H T T P S : / / W W W. E C 
U. O
G /SEEC U - O N L I N E )

U P DAT E P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )

18.00%

MENU


APR may vary.

APR³

10.90%

Currently

for

to a Maximum xed rate

7.75% to

18.00%

18.00%

Based on creditworthiness

Based on creditworthiness

Minimum xed rate

APR may vary.

APR³

10.90%

Currently

for

to a Maximum xed rate

7.75% to

Cash

18.00%

18.00%

Advances

Based on creditworthiness

Based on creditworthiness

NA

NA

Penalty
APR and
When It
Applies

9

Based on creditworthiness

Minimum xed rate

Balance
Transfers

Low

Low
9

Low
9


(/)

SMART SEARCH



LO C AT I O N S ( H T T P S : / / W W W. E C U. O R G / B R A N C H E S )

Your due date is at least 25 days after the
Your due date is at least 25 days after the
close of each billing cycle. We will not charge
close of each billing cycle. We will not charge
you any interest on purchases if you pay your
you any interest on purchases if you pay your
entire balance by the due date each month.
entire balance by the due date each month.
CRLO
U. O
G /SEEC U - O N L I N E )
 C O N TAC T ( H T T P S : / / W W W. E C U. O R G / C O N TAC T )
 E C U O N L I N E ( H T T P S : / / W W W. E C 
We will begin charging interest on cash
We will begin charging interest on cash
PAYING
advances and balance transfers on the
advances and balance transfers on the
INTEREST
transaction date.
transaction date.


U P DAT E P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )

Minimum
Interest
Charge

For Credit
Card Tips
from the
Consumer
Financial
Protection
Bureau

MENU

Your due date is at
close of each billing c
you any interest on p
entire balance by the
We will begin cha
advances and bal
transac



NA

NA

To learn more about factors to consider when
applying for or using a credit card, visit the
website of the Consumer Financial Protection
Bureau at

To learn more about factors to consider when
applying for or using a credit card, visit the
website of the Consumer Financial Protection
Bureau at

To learn more about f
applying for or usin
website of the Consu
Bur

https://www.consumer nance.
(https://www.consumer nance.gov/learnmore/)

https://www.consumer nance.
(https://www.consumer nance.gov/learnmore/)

https://www.c
(https://www.consume

gov/learnmore
(https://www.consumer nance.gov/learnmore/)

gov/learnmore
(https://www.consumer nance.gov/learnmore/)

gov/le
(https://www.consume

Fees

Annual Fee
NONE

NONE

NONE


(/)

Transaction
SMART SEARCH
Fees

*Balance
Transfer




LO C AT I O N S ( H T T P S : / / W W W. E C U. O R G / B R A N C H E S )

NONE

C O*Cash
N TAC T ( H T T P S : / / W W W. E C U. O R G / C O N TAC T )

NONE


NONE

CRLO
E C U O N L I N E ( H T T P S : / / W W W. E C 
U. O
G /SEEC U - O N L I N E )

Advance
NONE


NONE

U P DAT E P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )

Visa®
International
Service
Assessment
(ISA) Fee

NONE

MENU



NONE

NONE

NONE

Up to $25

Up to $25

Up to $25

NONE

NONE

NONE

NONE

NONE

NONE

Penalty
Fees

*Late
Payment
*Over-theCredit Limit
*Returned
Payment

¹The U.S. Prime Rate used to determine your APRs for each billing period is the U.S. Prime Rate
published in the Wall Street Journal on the last business day of the month. If two rates are reported, the
higher rate will be used.
²Platinum Preferred o ers a Rewards Program – for every dollar spent (purchases only), you earn at least
one point toward various gift items and travel services.
³APR information is accurate as of March 18, 2021, and may change after that. To nd out what may have
changed, write to ECU, P.O. Box 1989, Kingsport, TN 37662 or call 423-229-8200 or 800-999-2328.
Illinois residents may contact the Illinois Commissioner of Bank and Trust Companies for comparative
information on interest rates, charges, fees and grace periods, at State of Illinois CIP, P.O. Box 10181,
Spring eld, IL 62791 or 800-634-5452. Visa® is a federally registered service mark of Visa U.S.A., Inc.

(/)

How We Will Calculate Your Balance: We use a method called “average daily balance (including new
purchases)”. See your account agreement for more details.
 SMART SEARCH
 LO C AT I O N S ( H T T P S : / / W W W. E C U. O R G / B R A N C H E S )
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided in your account agreement.
Minimum Monthly Payment – 2.5% of your new balance, but at least $25.00. Balances under $25.00
CRLO
O Npaid
TAC T in
( Hfull.
T T P S : / / W W W. E C U. O R G / C O N TAC T )
U. O
G /SEEC U - O N L I N E )
 Cbe
 E C U O N L I N E ( H T T P S : / / W W W. E C 
must

Interest
E P E R Sand
O N AInterest
L I N F O ( HCharges
T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )
 U P DATRates

PROGRAM

MENU



CLASSIC SECURE

ECU CASH REWARDS¹

FIXED

FIXED

Eastman Credit Union will set your xed APR
based on your creditworthiness. You will be
informed of your speci c APR before you
become contractually liable for the account.

Eastman Credit Union will set your xed APR
based on your creditworthiness. You will be
informed of your speci c APR before you
become contractually liable for the account.

Minimum xed rate

Minimum xed rate

Annual
Percentage
Rate (APR)²

10.90%

12.90%

to a Maximum xed rate

to a Maximum xed rate

for

18.00%

17.90%

Purchases

Based on creditworthiness

Based on creditworthiness

Minimum xed rate

Minimum xed rate

APR²

10.90%

12.90%

for

to a Maximum xed rate

to a Maximum xed rate

Balance
Transfers

18.00%

17.90%

Based on creditworthiness

Based on creditworthiness


(/)



Minimum xed rate

Minimum xed rate

APR¹

10.90%

12.90%

for

to a Maximum xed rate

to a Maximum xed rate

SMART SEARCH



LO C AT I O N S ( H T T P S : / / W W W. E C U. O R G / B R A N C H E S )

18.00%
C OCash
N TAC T ( H T T P S : / / W W W. E C U. O R G / C O N
TAC T )

Advances





17.90%
CRLO
E C U O N L I N E ( H T T P S : / / W W W. E C 
U. O
G /SEEC U - O
NLINE)

Based on creditworthiness

Based on creditworthiness

U P DAT E P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )

Penalty
APR and
When It
Applies

PAYING
INTEREST

Minimum
Interest
Charge

For Credit
Card Tips
from the
Consumer
Financial
Protection
Bureau

MENU



NA

NA

Your due date is at least 25 days after the
close of each billing cycle. We will not charge
you any interest on purchases if you pay your
entire balance by the due date each month.
We will begin charging interest on cash
advances and balance transfers on the
transaction date.

Your due date is at least 25 days after the
close of each billing cycle. We will not charge
you any interest on purchases if you pay your
entire balance by the due date each month.
We will begin charging interest on cash
advances and balance transfers on the
transaction date.

NA

NA

To learn more about factors to consider when
applying for or using a credit card, visit the
website of the Consumer Financial Protection
Bureau at

To learn more about factors to consider when
applying for or using a credit card, visit the
website of the Consumer Financial Protection
Bureau at

https://www.consumer nance.gov/learnmore
(https://www.consumer nance.gov/learnmore/)

https://www.consumer nance.gov/learnmore
(https://www.consumer nance.gov/learnmore/)



SMART SEARCH



LO C AT I O N S ( H T T P S : / / W W W. E C U. O R G / B R A N C H E S )

(/)

C O N TAC T
Fees



( H T T P S : / / W W W. E C U. O R G / C O N TAC T )



CRLO
E C U O N L I N E ( H T T P S : / / W W W. E C 
U. O
G /SEEC U - O N L I N E )

U P DAT E P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )

MENU



Annual Fee
NONE

NONE

NONE

NONE

NONE

NONE

Transaction Fees

*Balance Transfer

*Cash Advance

Visa®
International
Service
Assessment
(ISA) Fee

NONE

NONE

Penalty Fees
 SMART SEARCH
(/)



LO C AT I O N S ( H T T P S : / / W W W. E C U. O R G / B R A N C H E S )

*Late Payment
Up to $25
C O N TAC T ( H T T P S : / / W W W. E C U. O R G / C O N TAC T )
*Over-theCredit Limit
NONE

*Returned
 U P DAT E
Payment

Up to $25



CRLO
E C U O N L I N E ( H T T P S : / / W W W. E C 
U. O
G /SEEC U - O N L I N E )

NONE

P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )

NONE

NONE

MENU



¹ECU Cash Rewards o ers a reward program that for every dollar spent (net purchases only), you earn at
least 1% cash. Please review your Cardholder Agreement for complete details.
²APR information is accurate as of March 18, 2021, and may change after that. To nd out what may have
changed, write to ECU, P.O. Box 1989, Kingsport, TN 37662 or call 423-229-8200 or 800-999-2328.
Illinois residents may contact the Illinois Commissioner of Bank and Trust Companies for comparative
information on interest rates, charges, fees and grace periods, at State of Illinois CIP, P.O. Box 10181,
Spring eld, IL 62791 or 800-634-5452. Visa® is a federally registered service mark of Visa U.S.A., Inc.
How We Will Calculate Your Balance: We use a method called “average daily balance (including new
purchases)”. See your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided in your account agreement.
Minimum Monthly Payment – 2.5% of your new balance, but at least $25.00. Balances under $25.00
must be paid in full.

YOUR BILLING RIGHTS- KEEP THIS NOTICE FOR FUTURE USE

This notice contains important information about your rights and our responsibilities under the Fair Credit
Billing Act.

NOTIFY US IN CASE OF ERRORS OR QUESTIONS ABOUT YOUR BILL

If you think your bill is wrong, or need more information about a transaction on your bill, write us on a
separate sheet at:


(/)

S M A R T S EEastman
ARCH

Credit
LO C AT I O N S
 Union

( H T T P S : / / W WPhone
W. E C U.-O1-800-999-2328
RG/BRANCHES)

Card Services

Fax -

1-423-578-7626

P. O. Box 1989


C O N TAC T ( H T T P S : / / W W W. E C U. O R G / C O N TAC T )

Kingsport, TN 37662



CRLO
E C U O N L I N E ( H T T P S : / / W W W. E C 
U. O
G /SEEC U - O N L I N E )

Write to us as soon as possible. We must hear from you no later than 60 days after we have sent you
the rst bill on which the error or problem appeared. You can telephone us, but doing so will not
preserve your rights. If you prefer to contact ECU directly, you may write us at ECU Card Services P.O.
MENU
 U P DAT E P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )
Box 1989 Kingsport, TN 37662 or call 1-800-999-2328. You may also email your request
via secure email
at https://securemail-ecu.org (https://securemail-ecu.org/s/login?b=ecu). Login/register, click on
‘Compose’ and submit to ecenter@ecu.org (mailto:ecenter@ecu.org). If your card is reported as being
blocked due to fraud or dispute after ECU’s normal business hours, additional information will be
necessary so please contact ECU (800-999-2328, X7496) the following business day.

Whether you report the error or problem by letter or phone, please provide:
(a) Your name and account number
(b) The dollar amount of suspected error.
(c) Describe the error and explain, if you can, why you believe there is an error. If you need more
information, describe the item you are not sure about.
If you have authorized ECU to pay your credit card bill automatically from your share or share draft
account, you can stop the payment of any amount you think is wrong. To stop the payment, a separate
letter must reach us three business days before the automatic payment is scheduled to occur. Mail to:
ECU Card Services, P.O. Box 1989, Kingsport, TN 37662

YOUR RIGHTS AND OUR RESPONSIBILITIES AFTER WE RECEIVE YOUR WRITTEN NOTICE

We must acknowledge your letter within 30 days, unless we have corrected the error by then. Within 90
days, we must either correct the error or explain why we believe the bill was correct. After we receive
your letter, we cannot try to collect any amount you question, or report you as delinquent. We can
continue to bill you for the amount you question, including nance charges. We can apply any unpaid
amount against your credit limit. You do not have to pay any questioned amount while we are
investigating, but you are still obligated to pay parts of your bill not in question.
If we nd that we made a mistake on your bill, you will not have to pay the amount in question or any
nance charges or other fees related to any questioned amount. If we didn't make a mistake, you will
have to pay the amount in question, along with applicable nance charges and fees. In either case, we
will send you a statement of the amount you owe and the date that it is due.

(/)

If you fail to pay the amount that we think you owe, we may report you as delinquent. However, if our
explanation does not satisfy you and you write to us within ten days telling us that you still refuse to pay,
SMART SEARCH
C AT I O N S ( H T T P S : / / W W W. E C U. O R G / B R A N C H E S )
must
 LOyou
we
tell anyone we report
to that you have a question about your bill. And, we must tell you the
name of anyone we reported you to. We must tell anyone we report you to that the matter has been
settled between us when it nally is.
If we don't follow these rules, we can't collect the rst $50 of questioned amount, even if your bill was
CRLO
U. O
G /SEEC U - O N L I N E )
 C O N TAC T ( H T T P S : / / W W W. E C U. O R G / C O N TAC T )
 E C U O N L I N E ( H T T P S : / / W W W. E C 
correct.

SPECIAL RULE FOR CREDIT CARD PURCHASES
MENU
 U P DAT E P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )
If you are dissatis ed with the goods or services that you have purchased with a credit card and you
have tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase. To use this right, the following must be true:



(a) You must have made the purchase in your home state, or if not within your home state, within 100
miles of your current mailing address, and the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if
we own the company that sold you the goods or services.)
(b) You must have used your credit card for the purchase. Purchases made with cash advances from an
ATM or with a check that accesses your credit card account do not qualify.
(c) You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatis ed with the purchase, contact us in writing at:
ECU Card Services P.O. Box 1989 Kingsport, TN 37662

While we investigate, the same rules apply to the disputed amount as discussed above. After we nish
our investigation, we will tell you our decision. At that point, if we think you owe an amount and you do
not pay, we may report you as delinquent.


(/)

Eastman Credit Union

2021 Meadowview Lane







ATMs & Branches (/Branches)

Phone: 800.999.2328 (tel:800.999.2328)



ABOUT

LO C AT I O N S ( H T T P S : / / W W W. E C U. O R G / B R A N C H E S )

(/About-ECU)
C O N TAC T About
( H T T PECU
S://W
W W. E C U. O R G / C O N TAC T )

Kingsport, Tennessee 37660





SMART SEARCH

Careers (/HR-Sta ng)
News & Events (/News)

SERVICES



(/Product-Landing-Pages/Loans)
Rates
CRLO
ECU O
N L I N E ( H T T P S : / / W W W. E C 
U. O
G /SEEC U
- O N L(/Rates/Personal-BankingINE)
Loans
Rates/Checking-Rates)

Personal Banking (/Product-LandingPages/Personal-Banking)

Educational Resources

Investments & Retirement (/Product-

U P DAT E P E R S O N A L I N F O ( H T T P S : / / W W W. E C U. O R G / U P DAT E C O N TAC T I N F O )

Newsletter (/About-ECU/Newsletter)

RESOURCES



Landing-Pages/Investments-

MENU

(/Resources/Educational-Resources)



Retirement)

(https://www.facebook.com/ECUBesideYou/)
(https://twitter.com/ecubesideyou)
(https://www.youtube.com/channel/UCLpqT68o7p0oG6bNH07YYtA)
Business Banking (/Product-Landing-

Calculators (/Resources/Calculators)
Report Lost/Stolen Card (/Report-aLost-of-Stolen-Card)

Pages/Business-Services)
J O I N T O D AY

ECU Title & Escrow (/Product-LandingPages/Loans/Mortgage-Loans/ECUTitle-Escrow)

Routing/Transit Number: 264279350
© 2021 Eastman Credit Union. All rights reserved.
Privacy Policy (/Privacy-Policy) | CA Privacy Policy (/PrivacyPolicy/California-Privacy-Policy) | Web Accessibility Statement (/PrivacyPolicy/ECU-Web-Accessibility-Statement)
(/ECU/media/ECU/Policies%20and%20Disclosures/EqualHousing-Opportunity-Notice.pdf)

(https://www.ncua.gov/Pages/default.aspx)
This Credit Union is federally insured
by NCUA.

